 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL


 NONINSTITUTIONAL PROVIDERS IN
   CALIFORNIA DID NOT ALWAYS
RECONCILE INVOICE RECORDS WITH
 CREDIT BALANCES AND REFUND TO
THE STATE AGENCY THE ASSOCIATED
    MEDICAID OVERPAYMENTS


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Lori A. Ahlstrand
                                                Regional Inspector General

                                                         July 2013
                                                       A-09-12-02047
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the program.
At the Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the
program. Each State administers its Medicaid program in accordance with a CMS-approved
State plan. Although the State has considerable flexibility in designing and operating its
Medicaid program, it must comply with applicable Federal requirements. In California, the
Department of Health Care Services (State agency) administers the program.

Providers of Medicaid services submit claims to States to receive compensation. The States
process and pay the claims. The Federal Government pays its share (Federal share) of State
medical assistance expenditures according to a defined formula (42 CFR § 433.10).

Credit balances may occur when a provider’s reimbursement for services exceeds the allowable
amount or when the reimbursement is for unallowable costs. Credit balances may also occur
when a provider receives payments from Medicaid and another third-party payer for the same
services. Additionally, credit balances may occur when reimbursements for services are
recorded incorrectly. Credit balances do not always contain overpayments due back to the
Medicaid program.

Providers record and accumulate charges and reimbursements for services in each patient’s
record of account (invoice record). Providers should reconcile invoice records with credit
balances to include a review of all charges and payment records, and, if the reconciliation
identifies a Medicaid overpayment, the provider should refund to the State the overpayment.
The State must refund to CMS the Federal share of the overpayment (the Social Security Act,
§ 1903(d)(2)(A), and 42 CFR part 433, subpart F).

Effective March 23, 2010, States have up to 1 year from the date of discovery of an overpayment
for Medicaid services to recover, or attempt to recover, the overpayment before making an
adjustment to refund the Federal share. Except for overpayments resulting from fraud, the State
must make the adjustment no later than the deadline for filing the quarterly expenditure report
(Form CMS-64) for the quarter in which the 1-year period ends, regardless of whether the State
recovers the overpayment.

In general, an overpayment is discovered when a State either (1) notifies a provider in writing of
an overpayment and specifies a dollar amount subject to recovery or (2) initiates a formal
recoupment action. Discovery may also occur when the provider initially acknowledges a
specific overpaid amount in writing to the State. If a Federal review (such as an audit) indicates
that a State has failed to identify an overpayment, the overpayment is considered discovered on
the date the Federal official first notifies the State in writing of the overpayment and specifies a
dollar amount subject to recovery.




                                                  i
California regulations require providers eligible for electronic claims submission to review
payment records and refund Medicaid overpayments within a specific period.

This audit is part of a multistate review of credit balances at acute-care hospitals, nursing
facilities, and certain noninstitutional providers. In California, the audit focused on two types of
noninstitutional providers: physicians and physician groups. We randomly sampled
8 noninstitutional providers from 1,515 providers that had paid claims, totaling about
$219 million, as of the quarter ended September 30, 2011, and reviewed their invoice records as
of the quarter ended March 31, 2012.

OBJECTIVES

Our objectives were to determine whether noninstitutional providers reconciled invoice records
with credit balances and refunded to the State agency the associated Medicaid overpayments.

SUMMARY OF FINDINGS

Of the eight noninstitutional providers in our sample, two providers always reconciled invoice
records, one provider never reconciled invoice records, and five providers did not always
reconcile invoice records with credit balances and refund to the State agency the associated
Medicaid overpayments:

   •   One provider did not record Medicaid payments received, including $882,602 for the
       quarter ended September 30, 2011; as a result, we could not determine whether there
       were Medicaid credit balances that might have contained Medicaid overpayments.

   •   For 5 providers, we sampled a total of 129 invoice records with Medicaid credit balances
       that were unresolved for at least 60 days and found that 63 contained Medicaid
       overpayments and 66 did not. The Medicaid overpayments associated with the
       63 invoice records totaled $6,961 ($4,040 Federal share).

Using these results, we estimated that the State agency could realize an additional statewide
recovery of $1,081,493 ($618,749 Federal share) from noninstitutional providers and obtain
future savings if it enhanced its efforts to recover Medicaid overpayments in provider accounts.

The providers did not identify and refund Medicaid overpayments because the State agency did
not provide adequate oversight to ensure that providers exercised reasonable diligence in
reconciling invoice records with credit balances to identify and refund Medicaid overpayments
that were due to the State agency. In addition, the State agency’s requirement to review payment
records and refund Medicaid overpayments applied only to providers eligible for electronic
claims submission. Finally, the State agency did not require providers to submit reports that
showed all identified Medicaid overpayments recorded as credit balances in the providers’
accounting systems.




                                                 ii
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $6,961 ($4,040 Federal share) to the Federal Government for Medicaid
       overpayments to the providers,

   •   ensure that the one provider that never reconciled invoice records reviews payment
       records and refunds to the State agency any identified Medicaid overpayments, and

   •   enhance its efforts to recover additional Medicaid overpayments estimated at $1,081,493
       ($618,749 Federal share) from noninstitutional providers and realize future savings by
       requiring and ensuring that all providers exercise reasonable diligence in reconciling
       invoice records with credit balances and reporting the associated Medicaid overpayments.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our recommendations and
described actions that it planned to take to address our recommendations.




                                              iii
                                                   TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
            Medicaid Program ......................................................................................................1
            Federal and State Requirements Related to Medicaid Overpayments .......................1
            Selected Noninstitutional Providers ...........................................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY .........................................................2
            Objectives ..................................................................................................................2
            Scope ..........................................................................................................................2
            Methodology ..............................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          INVOICE RECORDS NOT RECONCILED ..................................................................5

          INVOICE RECORDS WITH MEDICAID CREDIT BALANCES................................5

          MEDICAID OVERPAYMENTS NOT REFUNDED.....................................................5

          INADEQUATE OVERSIGHT AND LACK OF REVIEW AND REPORTING
            REQUIREMENTS ........................................................................................................6

          MEDICAID OVERPAYMENTS AND ESTIMATED STATEWIDE
           RECOVERY .................................................................................................................6

          RECOMMENDATIONS .................................................................................................6

          STATE AGENCY COMMENTS ....................................................................................7

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                      iv
                                       INTRODUCTION

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities (Title XIX of the Social Security Act (the Act)). The Federal and State
Governments jointly fund and administer the program. At the Federal level, the Centers for
Medicare & Medicaid Services (CMS) administers the program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. In California, the Department of Health Care Services (State
agency) administers the program.

Providers of Medicaid services submit claims to States to receive compensation. The States
process and pay the claims. The Federal Government pays its share (Federal share) of State
medical assistance expenditures according to a defined formula (42 CFR § 433.10).

Credit balances may occur when a provider’s reimbursement for services exceeds the allowable
amount or when the reimbursement is for unallowable costs. Credit balances may also occur
when a provider receives payments from Medicaid and another third-party payer for the same
services. Additionally, credit balances may occur when reimbursements for services are
recorded incorrectly. Credit balances do not always contain overpayments due back to the
Medicaid program.

Providers record and accumulate charges and reimbursements for services in each patient’s
record of account (invoice record). Providers should reconcile invoice records with credit
balances to include a review of all charges and payment records, and, if the reconciliation
identifies a Medicaid overpayment, the provider should refund to the State the overpayment.
The State must refund to CMS the Federal share of the overpayment (the Act, § 1903(d)(2)(A),
and 42 CFR part 433, subpart F).

Federal and State Requirements Related to Medicaid Overpayments

States are responsible for recovering from providers any amounts paid in excess of allowable
Medicaid amounts and for refunding to CMS the Federal share (42 CFR § 433.312). Effective
March 23, 2010, States have up to 1 year from the date of discovery of an overpayment for
Medicaid services to recover, or attempt to recover, the overpayment before making an
adjustment to refund the Federal share. Except for overpayments resulting from fraud, the State
must make the adjustment no later than the deadline for filing the quarterly expenditure report
(Form CMS-64) for the quarter in which the 1-year period ends, regardless of whether the State
recovers the overpayment.

In general, an overpayment is discovered when a State either (1) notifies a provider in writing of
an overpayment and specifies a dollar amount subject to recovery or (2) initiates a formal
recoupment action. Discovery may also occur when the provider initially acknowledges a


                                                1
specific overpaid amount in writing to the State. If a Federal review (such as an audit) indicates
that a State has failed to identify an overpayment, the overpayment is considered discovered on
the date the Federal official first notifies the State in writing of the overpayment and specifies a
dollar amount subject to recovery (42 CFR § 433.316).

California regulations require providers eligible for electronic claims submission to review
payment records and refund Medicaid overpayments within a specific period (California
Administrative Code, Title 22, §§ 51502.1(f)(7) and 51008(d)).

Selected Noninstitutional Providers

This audit is part of a multistate review of credit balances at acute-care hospitals, nursing
facilities, and certain noninstitutional providers. In California, the audit focused on two types of
noninstitutional providers: physicians and physician groups. Table 1 identifies the primary
classification for each of the eight providers we sampled. Seven of the eight providers were
eligible for electronic claims submission.

                        Table 1: Primary Classifications for Providers

                            Provider                Description
                               1          Pediatric hospital medicine
                               2          Pathology
                               3          Clinic/center
                               4          Hospital medicine
                               5          Pathology
                               6          Pathology
                               7          Clinic/center
                               8          Medical imaging

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether noninstitutional providers reconciled invoice records
with credit balances and refunded to the State agency the associated Medicaid overpayments.

Scope

Of 1,515 noninstitutional providers with payments as of the quarter ended September 30, 2011,
totaling $219,337,953, we randomly sampled 8 providers. We reviewed the providers’ invoice
records as of the quarter ended March 31, 2012. We determined that one provider never
reconciled invoice records; consequently, we could not determine whether there were Medicaid
credit balances. The remaining 7 providers had 268 invoice records with Medicaid credit
balances, totaling $23,849. Two of the seven providers had no invoice records with Medicaid
credit balances that were unresolved for at least 60 days. The remaining 5 providers had
182 invoice records with Medicaid credit balances, totaling $20,333, that were unresolved for at


                                                  2
least 60 days. Of the 182 invoice records, we randomly sampled 129 invoice records, totaling
$19,045.

We did not review the overall internal control structure of the State agency or the
noninstitutional providers. We limited our internal control review to obtaining an understanding
of the policies and procedures that the providers used to review and reconcile invoice records
with credit balances and refund to the State agency any Medicaid overpayments.

We conducted our audit from May 2012 to March 2013 and performed fieldwork at the State
agency’s office in Sacramento, California, and at various locations throughout California and
Missouri 1 for the eight providers.

Methodology

To accomplish our objectives, we:

    •   reviewed applicable Federal and State laws, regulations, and guidelines pertaining to
        Medicaid overpayments;

    •   discussed with State agency personnel the State agency’s policies and procedures for
        identifying and recovering Medicaid overpayments from noninstitutional providers;

    •   created a sampling frame for the first stage of our sample design, consisting of
        1,515 noninstitutional providers from which we randomly selected 8 providers using the
        probability-proportional-to-size methodology;

    •   reviewed the providers’ policies and procedures for reviewing and reconciling invoice
        records with credit balances and refunding to the State agency Medicaid overpayments;

    •   determined the providers’ total number and associated dollar amount of all invoice
        records with credit balances and identified total Medicaid credit balances;

    •   created a sampling frame for the second stage of our sample design, consisting of 5 of the
        8 selected providers;

    •   selected a random sample of 50 invoice records with Medicaid credit balances that were
        unresolved for at least 60 days from 2 providers that had more than 50 such invoice
        records (a total of 100 invoice records);

    •   reviewed all the invoice records with Medicaid credit balances that were unresolved for
        at least 60 days from 3 providers that had fewer than 50 such invoice records (a total of
        29 invoice records);


1
 The eight providers were located in California. One provider contracted with a Missouri billing company for
claims processing.


                                                        3
   •   reviewed payment records, patient account details, and additional support for each of the
       selected invoice records to determine whether there were Medicaid overpayments that
       should be refunded to the State agency;

   •   estimated the statewide unrecovered Medicaid overpayments associated with
       noninstitutional providers’ Medicaid credit balances;

   •   discussed the results of our review with the eight providers in our sample; and

   •   provided the results of our review to the State agency.

See Appendix A for details on our sample design and methodology and Appendix B for our
sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

Of the eight noninstitutional providers in our sample, two providers always reconciled invoice
records, one provider never reconciled invoice records, and five providers did not always
reconcile invoice records with credit balances and refund to the State agency the associated
Medicaid overpayments:

   •   One provider did not record Medicaid payments received, including $882,602 for the
       quarter ended September 30, 2011; as a result, we could not determine whether there
       were Medicaid credit balances that might have contained Medicaid overpayments.

   •   For 5 providers, we sampled a total of 129 invoice records with Medicaid credit balances
       that were unresolved for at least 60 days and found that 63 contained Medicaid
       overpayments and 66 did not. The Medicaid overpayments associated with the
       63 invoice records totaled $6,961 ($4,040 Federal share).

Using these results, we estimated that the State agency could realize an additional statewide
recovery of $1,081,493 ($618,749 Federal share) from noninstitutional providers and obtain
future savings if it enhanced its efforts to recover Medicaid overpayments in provider accounts.

The providers did not identify and refund Medicaid overpayments because the State agency did
not provide adequate oversight to ensure that providers exercised reasonable diligence in
reconciling invoice records with credit balances to identify and refund Medicaid overpayments
that were due to the State agency. In addition, the State agency’s requirement to review payment
records and refund Medicaid overpayments applied only to providers eligible for electronic
claims submission. Finally, the State agency did not require providers to submit reports that


                                                4
showed all identified Medicaid overpayments recorded as credit balances in the providers’
accounting systems. 2

INVOICE RECORDS NOT RECONCILED

One provider never reconciled invoice records. Although the State agency reimbursed the
provider for services, including $882,602 for the quarter ended September 30, 2011, the provider
did not record Medicaid payments received. As a result, we could not determine whether there
were Medicaid credit balances that might have contained Medicaid overpayments due to the
State agency.

INVOICE RECORDS WITH MEDICAID CREDIT BALANCES

For 5 providers, including 1 provider that was not eligible for electronic claims submission, we
determined that 182 invoice records, totaling $20,333, had Medicaid credit balances that were
unresolved for at least 60 days, as shown in Table 2. Although the State agency reimbursed the
providers for services, the providers had not reconciled, or otherwise evaluated, the invoice
records to determine whether the Medicaid credit balances contained Medicaid overpayments
that should have been refunded to the State agency.

                     Table 2: Invoice Records With Medicaid Credit Balances

                   Length of Time              Number of              Amount of Medicaid
                     Unresolved              Invoice Records           Credit Balances
                  60–365 days                       133                     $8,350
                  1–2 years                          45                     11,430
                  2–3 years                           3                         499
                  More than 3 years                   1                          54
                    Total                           182                    $20,333

MEDICAID OVERPAYMENTS NOT REFUNDED

The California Administrative Code, Title 22, § 51502.1(f)(7), states that providers eligible for
electronic claims submission must review payment records and promptly pursue corrections for
any overpayments within the applicable limits of § 51008(d). Section 51008(d) requires that a
request for adjustment or reconsideration of a processed claim be received not later than
6 months following the date of payment or denial of the claim. For overpayments identified later
than 6 months, California’s Medi-Cal Provider Manual, Part I, states that requests for
overpayment adjustments may be submitted at any time.

Of the 129 invoice records in our sample, 63 contained Medicaid overpayments totaling $6,961
($4,040 Federal share) that had not been refunded to the State agency. The overpayments were
caused by duplicate payments, which typically occurred when providers erroneously generated

2
  A Federal requirement that providers must report and repay overpayments within a certain time period was added
to section 1128J of the Act by section 6402(a) of the Patient Protection and Affordable Care Act, P.L. No. 111-148.
CMS will issue Medicaid regulations in the future to establish Federal policies and procedures to implement the law.


                                                         5
multiple billings or when Medicaid paid more than once for the same service. The overpayments
also were caused by billing errors, which included overstated amounts billed or paid, Medicaid
and third-party claims billed in error, and payment received from Medicaid for services not
billed.

INADEQUATE OVERSIGHT AND LACK OF REVIEW AND REPORTING
REQUIREMENTS

The providers did not identify and refund Medicaid overpayments because the State agency did
not provide adequate oversight to ensure that providers exercised reasonable diligence in
reconciling invoice records with credit balances to identify and refund Medicaid overpayments
that were due to the State agency. For example, State officials told us that the State agency does
not periodically audit all noninstitutional providers. In addition, the State agency’s requirement
to review payment records and refund Medicaid overpayments applied only to providers eligible
for electronic claims submission. Finally, the State agency did not require providers to submit
reports that showed all identified Medicaid overpayments recorded as credit balances in the
providers’ accounting systems.

MEDICAID OVERPAYMENTS AND ESTIMATED STATEWIDE RECOVERY

Of the 129 invoice records in our sample, 63 contained Medicaid overpayments totaling $6,961
($4,040 Federal share) paid to 5 providers. (See Appendix B for details of our sample results.)
Also, we estimated that the State agency could realize an additional statewide recovery of
$1,081,493 ($618,749 Federal share) from noninstitutional providers and obtain future savings
by requiring and ensuring that all providers exercise reasonable diligence in reconciling invoice
records with credit balances and reporting the associated Medicaid overpayments. (See
Appendix B for details of our statewide estimate.) Our estimated statewide recovery may be
understated because one provider never reconciled invoice records with credit balances.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $6,961 ($4,040 Federal share) to the Federal Government for Medicaid
       overpayments to the providers,

   •   ensure that the one provider that never reconciled invoice records reviews payment
       records and refunds to the State agency any identified Medicaid overpayments, and

   •   enhance its efforts to recover additional Medicaid overpayments estimated at $1,081,493
       ($618,749 Federal share) from noninstitutional providers and realize future savings by
       requiring and ensuring that all providers exercise reasonable diligence in reconciling
       invoice records with credit balances and reporting the associated Medicaid overpayments.




                                                6
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our recommendations and
described actions that it planned to take to address our recommendations. The State agency’s
comments are included in their entirety as Appendix C.




                                              7
APPENDIXES
                                                                                        Page 1 of 2


                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of certain noninstitutional providers for California that received a
Medicaid payment during the quarter ended September 30, 2011. These noninstitutional
providers were either physicians or physician groups. Physicians are identified in California’s
Medicaid Management Information System (MMIS) as provider type 026. Physician groups are
identified as provider type 022.

SAMPLING FRAME

From California’s MMIS, we created a database of all payments made to certain noninstitutional
providers during the quarter ended September 30, 2011. We combined providers by employer
identification numbers or Social Security numbers to create a unique listing of providers. The
database consisted of 5,197,769 claims with Medicaid payments totaling $281,117,111,
representing 11,871 providers. We then removed all providers with fewer than 500 Medicaid
claims and excluded 1 provider that did not have an employer identification number or a Social
Security number. The resulting sampling frame of 4,388,403 claims and Medicaid payments
totaling $219,337,953 represented 1,515 providers.

SAMPLE UNIT

The primary sample unit was a noninstitutional provider. The secondary sample unit was an
invoice record with a Medicaid credit balance in a provider’s account that was unresolved for at
least 60 days as of March 31, 2012.

SAMPLE DESIGN

We used a multistage sample design based on probability-proportional-to-size weighted by the
total number of Medicaid claims paid for the quarter ended September 30, 2011. The first stage
consisted of a random selection of providers with probability of selection proportional to the total
number of paid Medicaid claims. The second stage consisted of a simple random sample at each
of the selected providers where the provider had 50 or more invoice records with Medicaid credit
balances as of the quarter ended March 31, 2012. If the provider did not have at least 50 invoice
records with Medicaid credit balances as of the quarter ended March 31, 2012, we selected for
review all of that provider’s invoice records with Medicaid credit balances.

SAMPLE SIZE

We selected eight noninstitutional providers as the primary units. For the secondary units, we
selected a random sample of 50 invoice records with Medicaid credit balances from 2 providers
(100 invoice records) and all invoice records with Medicaid credit balances from 3 providers
(29 invoice records), for a total of 129 invoice records in the amount of $19,045. We did not
select invoice records with Medicaid credit balances from two providers because the Medicaid
credit balances had not been unresolved for at least 60 days. We did not select invoice records
                                                                                      Page 2 of 2


from the remaining provider because the provider never reconciled invoice records with credit
balances.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OIG/OAS), statistical software.

METHOD OF SELECTING SAMPLE ITEMS

The sample selection used probability-proportional-to-size through which we considered the
relative sizes of the noninstitutional providers when selecting the primary sampling units. For
the secondary units, we consecutively numbered the invoice records with Medicaid credit
balances in the sampling frame for each provider. After generating the random numbers, we
selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the amount of Medicaid overpayments.
                                                                                                          Page 1 of 2


                        APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                       SAMPLE RESULTS OF MEDICAID OVERPAYMENTS

                                                                         Amount of
                 Invoice        Sample Sample    No. of     Amount of   Overpayments
  Provider
                 Records        Frame   Size  Overpayments Overpayments   (Federal
                                                                           Share)
       1               4           4       4        2            $81          $50
       2              14           0       0        0              0            0
       3               0           0       0        0              0            0
       4              29          23      23       10            542          284
       5              20           0       0        0              0            0
       6             145         100      50        9            315          158
       7               2           2       2        2            337          208
       8              54          53      50       40          5,686        3,340
      Total          268         182     129       63         $6,961       $4,040

                       STATEWIDE ESTIMATE OF POTENTIAL SAVINGS 1

                                                     First Stage

                  Population        Frame Size                    Value of           Sample Size
               (No. of Providers) (No. of Claims)                  Frame           (No. of Providers)

                       1,515                 4,388,403         $219,337,953                  8


                                                    Second Stage

  Frame                     Sample                                                                     Amount of
               Value                                        No. of              Amount of
Size (No.                  Size (No. Value of                                                         Overpayments
                 of                                      Overpayments          Overpayments
of Invoice                 of Invoice Sample                                                            in Sample
               Frame                                      in Sample             in Sample
Records)                   Records)                                                                  (Federal Share)

      182     $20,333          129         $19,045               63                 $6,961                 $4,040




  1
   To calculate the statewide estimate of potential savings, we included the payments for the eight providers,
  including the three providers with no overpayments.
                                                                                              Page 2 of 2


                                 Estimated Amount of Overpayments 2
                        (Limits Calculated for a 90-Percent Confidence Interval)

                              Point estimate                      $1,088,454
                              Lower limit                          (127,775)
                              Upper limit                          2,304,684

                         Estimated Amount of Overpayments (Federal Share)
                        (Limits Calculated for a 90-Percent Confidence Interval)

                              Point estimate                        $622,789
                              Lower limit                            (83,814)
                              Upper limit                          1,329,391




2
    The estimated amount of overpayments includes the amount of overpayments in the sample.
                                                                                                               Page 1 of4


                  APPENDIX C: STATE AGENCY COMMENTS


                        State of Califomia-Health and Human Services Agency
~l-ICS
                        Department of Health Care Services

TOBY DOUGLAS                                                                                        EDMUND G. BROWN JR.
  DIRECTOR                                                                                              GOVERNOR




     JUN - 3 20\3
    Ms. Lori A . Ahlstrand
    Regional Inspector General for Audit Services
    Office of Audit Services, Region IX
    90-ih Street , Suite 3-650
    San Francisco, CA 94103

    Dear Ms. Ah lstrand:

    The California Department of Health Care Services (DHCS) has p;epared its response
    to the U.S. Department of Health and Human Services, Office of Inspector General
    (OIG) draft report entitled Noninstitutional Providers in California Did Not Always
    Reconcile Invoice Records with Credit Balances and Refund to the State Agency the
    Associated Medicaid Overpayments.

    DHCS appreciates the work performed by OIG and the opportunity to respond to the
    draft report. Please contact Ms. Melanie Pascua, Audit Coordinator, at (916) 445-24 10
    if you have any questions.


    Sincerely,



    Toby Douglas 

    Director 




    Enclosure




               1501 Capitol Avenue, Suite 71 .6001, MS 0000 • P.O. 997413 • Sacramento, CA 95899-7413 

                                         (916) 440-7400 • (916) 440-7404 FAX 

                                           Internet address: wv..w.dhcs .ca.gov 

                                                      Page 2 of 4



Ms. Lori A. Ahlstrand
Page 2



cc: 	   Karen Johnson, Ch ief Deputy Director
        Department of Health Care Services
        1501 Capitol Avenue, MS 0000
        P.O. Box 997413 

        Sacramento, CA 95899-7413 


        Mari Cantwell, Chief Deputy Director
        Department of Health Care Services
        1501 Capitol Avenue, MS 0000
        P.O. Box 997413 

        Sacramento, CA 95899-7413 


        Bruce Lim , Deputy Director
        Audits & Investigations Division
        Department of Health Care Services
        1501 Capitol Avenue , MS 0009
        P.O. Box 997413 

        Sacramento, CA 95899-7413 


        William Alameda , Assistant Deputy Director
        Audits & Investigations Division
        Department of Health Care Services
        1501 Capitol Avenue, MS 0009
        P.O. Box 997413 

        Sacramento, CA 95899-7413 


        Mark Mimnaugh, Chief
        Medical Review Branch
        Department of Health Care Services
        1501 Capitol Avenue, MS 0009
        P.O. Box 997413 

        Sacramento, CA 95899-7413 

                                                                                              Page 3 of 4




                  Department of Health Care Services Response to the 

                   Office of Inspector General's Draft Report Entitled: 

 Noninstitutional Providers in California Did Not Always Reconcile Invoice Records with 

                   Credit Balances and Refund to the State Agency the 

                           Associated Medicaid Overpayments 

                             Report A-09-12-02047, May 2013 




Finding #1: One provider did not record Medicaid payments received, including $882,602 for
the quarter ended September 30, 2011. As a result, OIG could not determine whether there
were Medicaid credit balances that might have contained Medicaid overpayments.

Recommendation: The Department of Health Care Services (DHCS) ensures that the one
provider that never reconciled invoice records reviews payment records and refunds DHCS
any identified Medicaid overpayments.

Response: DHCS agrees with the recommendation and will take corrective action by
conducting an onsite audit of the one provider. Audits and Investigations (A&I), Medical
Review Branch (MRB) will contact the provider, schedule an audit and do an onsite review by
reconciling invoice records with credit balances that are unresolved for at least 60 days. MRB
will determine if there are any credit balances that may result in overpayments by reviewing
duplicate payments, billing errors, and payments received for services not billed. MRB will
also look at aged accounts receivables and revenue journals for credit balances. If there are
Medicaid overpayments identified, MRB will issue a demand letter and collect the
overpayments.

Timeline for corrective action: Medical Review Branch will conduct the onsite audit as soon
as the department receives the provider's information from OIG.


Finding #2: OIG sampled 129 invoice records of five providers with Medicaid credit balances
that were unresolved for at least 60 days and found that 63 contained Medicaid overpayments
and 66 did not. The Medicaid overpayments associated with the 63 invoice records totaled
$6,961 ($4,040 Federa l share).

Recommendation: DHCS refund $6,961 ($4,040 Federal share) to the Federal Government
for Medicaid overpayments to the providers.

Response: DHCS agrees with the recommendation to refund $6,961 ($4,040 Federal share)
to the Federal Government for Medicaid overpayments.

Timeline for corrective action: DHCS expects to review the invoice records of the five
providers within the third quarter of 2013 and thereby issuing demand letters to recoup the
credit balances. The process initiates the repayment of the Federal share.


Finding #3: OIG estimated that DHCS could realize an additional statewide recovery of

                                            Page 1
                                                                                               Page4of4




$1,081,493 ($618,749 Federal share) from noninstitutional providers and obtain future saving if
it enhanced its efforts to recover Medicaid overpayments in provider accounts.

Recommendation: DHCS to enhance its efforts to recover additional Medicaid overpayments
estimated at $1,081,493 ($618,749 Federal share) from noninstitutional providers. DHCS is to
realize future savings by requ iring and ensuring that all providers exercise reasonable
diligence in reconciling invoice records with cred it balances and reporting the associated
Medicaid overpayments.

Response: DHCS agrees with the recommendation that the department needs to enhance its
efforts to recover additional Medicaid overpayments from noninstitutional providers. DHCS­
A&I-MRB will require and ensure noninstitutional providers (physicians and physician groups)
exercise reas.onable diligence in reconciling invoice records with credit balances and report the
associated Medicaid overpayments. Medical Review Branch will inform the nonistitutional
providers in writing to conduct self-audits on credit balances that are unresolved for at least 60
days. In the self-audit letters, MRB will instruct noninstitutional providers to review duplicate
payments. billing errors, and payments received for services not billed. MRB will also include
directions on how the provider is to report and refund all identified Medicaid overpayments to
the department in the self-audit letter.

In addition to the providers conducting self-audits, MRB will include an additional audit step in
the audit program to review credit balances for noninstitutional providers. MRB will review
duplicate payments, billing errors, and payments received for services not billed in addition to
looking at aged accounts receivables and revenue journals for credit balances . If there are
Medicaid overpayments identified, MRB will issue a demand letter and collect the
overpayment.

Timeline for corrective action: The corrective action plan is on the agenda for discussion
during the A&I -MRB Production meeting held in June 2013.




                                             Page 2
